March 18, 2003

AL INIGUEZ
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT: Audit Report – Sexual Harassment Prevention Measures in the Oakland
         and Santa Ana Districts – Pacific Area (Report Number LH-AR-03-008)

This report presents the results of our audit of sexual harassment prevention
measures in the Oakland and Santa Ana Districts - Pacific Area (Project
Number 02YG010LH006). Our overall objective was to determine if the districts
had adequate policies and procedures in place to prevent sexual harassment in the
workplace, and to effectively address sexual harassment complaints to mitigate liability.
This report is based on a self-initiated review, and is the eighth in a series of
ten reports we will be issuing regarding sexual harassment prevention measures Postal
Service-wide.

We found that the Oakland and Santa Ana Districts’ sexual harassment policies and
procedures were adequate, employees found responsible for sexual harassment or
inappropriate actions/comments were appropriately disciplined or corrective action was
taken, and managers/supervisors were considered for exclusion from the Pay for
Performance Program. We also found that although no Postal Service national policy
existed regarding the retention time for informal complaint files, the Santa Ana District
maintained them indefinitely, and the storage of files was adequate. We also found,
however, that some areas needed improvement. Specifically, most sexual harassment
complaints in both districts were not effectively addressed. In addition, the storage of
some complaint files was not centrally located in the Oakland District and file retention
was not consistent. As a result, management could not locate some files when we
asked for them. Oakland District management advised us they would take action to
correct this deficiency.

The report included three recommendations to help the Oakland and Santa Ana
Districts improve their sexual harassment prevention programs. Management agreed
with part of recommendation 1 and all of recommendations 2 and 3. The actions taken
or planned should correct some of the issues identified in this report. Management
disagreed, however, with the second part of recommendation 1 to fully document
detailed evidence of the actions taken to address complaints. The Office of Inspector
General (OIG) considers that part of recommendation 1 as unresolved, and will address
it in a separate capping report to the senior vice president, Human Resources.
Management’s comments and our evaluation of these comments are included in this
report.

The OIG considers recommendations 1, 2, and 3 significant and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information please contact Chris Nicoloff,
director, Labor Management, at (214) 775-9114, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Suzanne F. Medvidovich
    Murry E. Weatherall
    Winton A. Burnett
    Eduardo H. Ruiz
    Susan M. Duchek
Sexual Harassment Prevention Measures in the                         LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area


                                    TABLE OF CONTENTS

 Executive Summary                                                        i

 Part I

 Introduction                                                            1

     Background                                                          1
     Objective, Scope, and Methodology                                   1
     Prior Audit Coverage                                                1

 Part II

 Audit Results                                                           2

    Policies and Procedures Adequate                                      2

    Employees Appropriately Disciplined or Corrective Action Taken        3

    Managers/Supervisors Considered for Exclusion from Pay for            5
    Performance

    Most Complaints Not Effectively Addressed                            7
    Recommendations                                                      8
    Management’s Comments                                                8
    Evaluation of Management’s Comments                                  9

    File Retention and Storage Needed Improvement                       11
    Recommendation                                                      11
    Management’s Comments                                               11
    Evaluation of Management’s Comments                                 12

 Appendix A. Objective, Scope, and Methodology                          13

 Appendix B. Prior Audit Coverage                                       15

 Appendix C. Management’s Comments                                      16




                                          Restricted Information
Sexual Harassment Prevention Measures in the                                         LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area


                                   EXECUTIVE SUMMARY
 Introduction                   This report presents the results of our audit of sexual
                                harassment prevention measures in the Oakland and Santa
                                Ana Districts, located in the Pacific Area. This review was
                                self-initiated to determine if the districts had adequate
                                policies and procedures in place to prevent sexual
                                harassment in the workplace, and to effectively address
                                sexual harassment complaints to mitigate liability.

 Results in Brief               The audit revealed that the Oakland and Santa Ana
                                Districts’ sexual harassment policies and procedures were
                                adequate and that employees found responsible for sexual
                                harassment or inappropriate actions/comments were
                                appropriately disciplined or corrective action was taken. We
                                also found that managers/supervisors responsible for sexual
                                harassment or inappropriate actions/comments were
                                considered for exclusion from the Pay for Performance
                                Program. In addition, although no Postal Service national
                                policy existed regarding the retention time for informal
                                complaint files, the Santa Ana District maintained them
                                indefinitely, and the storage of complaint files was
                                adequate. We also found, however, that some areas
                                needed improvement. Specifically, most sexual harassment
                                complaints in both districts were not effectively addressed.
                                In addition, the storage of some complaint files was not
                                centrally located in the Oakland District, and file retention
                                was not consistent. As a result, management could not
                                locate some files when we asked for them. Oakland District
                                management advised us some action will be taken to
                                correct this deficiency.

 Summary of                     The report included three recommendations to help the
 Recommendations                Oakland and Santa Ana Districts improve their sexual
                                harassment prevention program. We recommended
                                management establish controls to ensure managers and
                                supervisors effectively address all sexual harassment
                                complaints and inappropriate actions/comments of a sexual
                                nature and fully document detailed evidence of the actions
                                taken to address complaints; and ensure the Equal
                                Employment Opportunity office notifies district management
                                of all complaints of sexual harassment or inappropriate
                                actions/comments of a sexual nature. We also
                                recommended Oakland District management establish
                                controls to ensure that all informal complaint files are stored
                                in a central location and retained for at least 4 years.

                                                 i
                                      Restricted Information
Sexual Harassment Prevention Measures in the                                       LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area




 Summary of                     Management agreed with part of recommendation 1 that
 Management’s                   managers and supervisors must effectively address all
 Comments                       sexual harassment complaints, and all of recommendations
                                2 and 3. Management stated that procedures have been
                                established in both districts to ensure compliance with the
                                recommendations. Management disagreed, however, with
                                the second part of recommendation 1 to fully document
                                detailed evidence of the actions taken to address
                                complaints. Management stated to require documentation
                                on every minor incident of inappropriate workplace behavior
                                would potentially undermine the ability of supervisors to
                                quickly and effectively resolve minor workplace issues.
                                They said that although all matters of sexual harassment
                                would be fully investigated, not all would result in a full
                                written record.

                                Management agreed with recommendation 2 that the
                                districts’ Equal Employment Opportunity offices notify
                                management of all complaints and stated that procedures
                                had been established in the Oakland and Santa Ana
                                Districts in September and November 2002, respectively, to
                                ensure compliance with the recommendation.

                                Management also agreed with recommendation 3 and
                                stated that all Equal Employment Opportunity formal and
                                informal complaint files in the Oakland District would be
                                maintained in the Equal Employment Opportunity office for
                                at least 4 years. They stated the Labor Relations office
                                would maintain all other files alleging sexual harassment for
                                5 years. Management’s comments, in their entirety, are
                                included in Appendix C of this report.

 Overall Evaluation of          Management’s actions taken or planned are responsive to
 Management’s                   the first part of recommendation 1 and all of
 Comments                       recommendations 2 and 3. However, management’s
                                comments are not responsive to the second part of
                                recommendation 1. We believe documentation plays an
                                important role in determining credibility and mitigating
                                liability and thus do not agree with management’s rationale
                                for not documenting actions taken to address complaints.
                                Postal Service policy is clear that serious complaints must




                                                 ii
                                      Restricted Information
Sexual Harassment Prevention Measures in the                                                               LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area



                                     be documented, and further provides that “When in doubt,
                                     document.” The OIG considers recommendation 1
                                     unresolved and will address it in a separate capping report.1




1
  We will issue a capping report on the audit results for the nine areas we visited, including the Pacific Area,
where recommendations regarding national policy will be made to the senior vice president, Human
Resources.

                                                      iii
                                            Restricted Information
Sexual Harassment Prevention Measures in the                                                         LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area


                                          INTRODUCTION
    Background                       Sexual harassment is defined by law as unwelcome sexual
                                     advances, requests for sexual favors, and other verbal or
                                     physical conduct of a sexual nature that becomes a term or
                                     condition of employment. According to a Postal Service
                                     Law Department report, in fiscal years (FY) 2000 and 2001,
                                     the Postal Service paid approximately $1,058,9992 for
                                     sexual harassment judgments and settlements in the Pacific
                                     Area.

    Objective, Scope, and            Our overall objective was to determine if the districts had
    Methodology                      adequate policies and procedures in place to prevent sexual
                                     harassment in the workplace, and to effectively address
                                     sexual harassment complaints to mitigate liability. Our
                                     objective, scope, and methodology are discussed in
                                     Appendix A.

    Prior Audit Coverage             We identified two audit reports for the Santa Ana District
                                     relating to the objective of this audit. These audit reports
                                     concerned the Postal Service sexual harassment policies
                                     and procedures and the investigation of sexual harassment
                                     complaints. See Appendix B for more details.




2
    This amount represents 12 complaints. None of these complaints were within the scope of our review.

                                                      1
                                           Restricted Information
Sexual Harassment Prevention Measures in the                                                          LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area


                                       AUDIT RESULTS
    Policies and        We found that the Oakland and Santa Ana Districts had
    Procedures Adequate adequate policies and procedures that should enable district
                        management to identify and prevent sexual harassment or
                        inappropriate actions/comments, and provide management
                        with guidance to respond effectively to complaints, thus
                        mitigating liability and costs.

                                   We also found that the districts:

                                       •    Established as district policies, Postal Service
                                            Publication 552, Manager’s Guide to Understanding
                                            Sexual Harassment, and Publication 553, Employee’s
                                            Guide to Understanding Sexual Harassment.

                                   In addition, we found that the two districts took several
                                   additional initiatives including the following:

                                       •    The Oakland District:

                                            – Issued a district wide sexual harassment policy in
                                              June 1999, that outlined procedures for reporting
                                              sexual harassment.

                                            – Used Voice of the Employee surveys3 to monitor
                                              the work environment.

                                       •    The Santa Ana District issued a memorandum to the
                                            Fullerton Post Office in April 2001, reinforcing the
                                            zero tolerance policy, as a result of an OIG sexual
                                            harassment investigation.




3
  The Voice of the Employee survey was a data collection instrument that the Postal Service had
established to help improve workplace relationships and to ensure all employees were treated with fairness,
felt safe in their workplace, had opportunities to participate in improvements, and took pride being Postal
Service employees.

                                                      2
                                           Restricted Information
Sexual Harassment Prevention Measures in the                                                               LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area




    Employees Appro-                 We found that employees responsible for sexual harassment
    priately Disciplined             or inappropriate actions/comments were appropriately
    or Corrective Action             disciplined, or corrective action was taken.
    Taken
                                     Equal Employment Opportunity Commission 1990 and
                                     1999 guidelines recommended agencies take immediate
                                     and appropriate corrective action, including discipline, when
                                     sexual harassment occurred. Postal Service policy stated
                                     employees engaged in sexual harassment would be subject
                                     to disciplinary action, up to and including removal. The
                                     policy also stated that disciplinary action might result even if
                                     the conduct was not sexual harassment as defined by the
                                     law, but was inappropriate and of a sexual nature.

                                     Our review of formal and informal4 complaints in the
                                     Oakland and Santa Ana Districts showed that:

                                           • Of the 17 formal and informal sexual harassment
                                             complaints filed in the Oakland District, sexual
                                             harassment or inappropriate actions/comments were
                                             not substantiated in 9 and substantiated in 3. For the
                                             five remaining complaints, management did not
                                             conduct an inquiry or investigation to determine
                                             whether sexual harassment or inappropriate
                                             actions/comments had occurred, and thus no
                                             disciplinary or corrective action was considered or
                                             taken.

                                                 −   In the three substantiated complaints,
                                                     five employees were involved, three were
                                                     appropriately disciplined or corrective action was
                                                     taken, and two were found not responsible.

                                                 − In eight of the nine unsubstantiated complaints,
                                                   employees received sexual harassment refresher
                                                   training.

                                           •     Of the 12 formal and informal complaints filed in the
                                                 Santa Ana District, sexual harassment or
                                                 inappropriate actions/comments were not
                                                 substantiated in 1 and substantiated in 1.



4
    The term “informal” complaint refers to those not filed in the Equal Employment Opportunity process.

                                                          3
                                               Restricted Information
Sexual Harassment Prevention Measures in the                                        LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area



                                         − In the one substantiated complaint,
                                           two employees were involved and both were
                                           appropriately disciplined or corrective action was
                                           taken.

                                        −   In the one unsubstantiated complaint, corrective
                                            action was taken.

                                        –    For the remaining ten formal complaints,
                                            management did not conduct an inquiry or
                                            investigation to determine whether sexual
                                            harassment or inappropriate actions/comments
                                            had occurred. In three complaints, no discipline or
                                            corrective action was considered or taken. In the
                                            remaining seven complaints, the Equal
                                            Employment Opportunity office took corrective
                                            action to resolve the complaints.




                                                 4
                                      Restricted Information
Sexual Harassment Prevention Measures in the                                                   LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area




    Managers/                   We found that the managers/supervisors in both districts
    Supervisors                 responsible for sexual harassment or inappropriate
    Considered for              actions/comments were considered for exclusion from the
    Exclusion from Pay          Pay for Performance Program.5
    for Performance
                                Equal Employment Opportunity Commission guidelines
                                included a reduction in wages as an effective corrective
                                measure to stop harassment and ensure it does not reoccur.
                                Postal Service policy stated an employee whose conduct
                                was clearly unacceptable may be excluded from the Pay for
                                Performance Program. The Postal Service described
                                unacceptable behavior as “notoriously disgraceful or
                                immoral conduct, or other conduct prejudicial to the Postal
                                Service.”

                                We found:

                                     •     Three employees in the Oakland District were found
                                           responsible for sexual harassment or inappropriate
                                           actions/comments. Two were managers/supervisors
                                           who were eligible for the Pay for Performance
                                           Program. One was excluded and one was
                                           considered for exclusion.

                                           − One supervisor was terminated and, therefore,
                                             excluded from the program.

                                           − The other supervisor received $2,233 in FY 2001.
                                             Management stated the supervisor was not
                                             excluded for a number of reasons, including the
                                             good standing of the supervisor’s current and
                                             past performance, and the Equal Employment
                                             Opportunity administrative judge ruling in favor of
                                             the supervisor.

                                    •     Two employees in the Santa Ana District were found
                                          responsible for sexual harassment or inappropriate
                                          actions/comments. Both were managers/supervisors
                                          who were eligible for the Pay for Performance
                                          Program and were considered for exclusion.



5
  The Pay for Performance Program, formerly referred to as the Economic Value Added Program, was an
incentive award program for nonbargaining employees. The amount of money received by each employee
was based on a group achievement of performance targets and financial measurements.

                                                    5
                                         Restricted Information
Sexual Harassment Prevention Measures in the                                    LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area



                                         − One manager/supervisor received $788 and the
                                           other received $2,792 in FY 2001. Management
                                           stated they did not exclude them based on the
                                           nature of the incident, and because both were
                                           voluntarily reassigned to another facility.




                                                 6
                                      Restricted Information
Sexual Harassment Prevention Measures in the                                                        LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area




    Most Complaints Not           Our audit disclosed that 18 of the 29 complaints were not
    Effectively                   effectively addressed in the Oakland and Santa Ana
    Addressed                     Districts. Equal Employment Opportunity Commission
                                  guidelines defined an “effective” investigation as a prompt,
                                  thorough, and impartial review with documented evidence.
                                  Postal Service policy required managers to conduct sexual
                                  harassment inquiries promptly and investigate all
                                  complaints, and document “serious” complaints with detailed
                                  evidence.6

                                  We found that:

                                       •    Postal Service national policy did not require that “all”
                                            complaints be documented—only those that
                                            managers believed were “serious.”

                                       •    Of the 17 formal and informal complaints filed in the
                                            Oakland District, 9 were effectively addressed and
                                            8 were not:

                                             − For the eight not effectively addressed, five were
                                               not investigated, two were not prompt, and
                                               one was not thorough.

                                             − District management provided a number of
                                               reasons why complaints were not effectively
                                               addressed. For example, for the five that
                                               were not investigated, management stated
                                               three complaints went directly to the Equal
                                               Employment Opportunity office and that office’s
                                               investigation was accepted. For the remaining
                                               two, management stated the Equal Employment
                                               Opportunity office advised them the complaints
                                               were not sexual harassment.

                                       •    Of the 12 formal and informal complaints filed in the
                                            Santa Ana District, 2 were effectively addressed and
                                            10 were not.



6
 Publication 552 was revised effective September 2001, and replaced the term “serious” with the statement
“some complaints can be resolved simply and directly between the parties without the need for a formal
written record.” The revised policy also provided that managers/supervisors needed to decide early in the
process whether formal documentation was warranted, and that a good rule of thumb is when in doubt,
document.

                                                      7
                                           Restricted Information
Sexual Harassment Prevention Measures in the                                        LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area



                                         − For the ten not effectively addressed,
                                           management did not conduct an investigation
                                           because the complaints were filed directly with
                                           the Equal Employment Opportunity office and
                                           that office did not notify district management.
                                           This precluded them from conducting their own
                                           investigation.

                                Complaints not effectively addressed could result in liability
                                because the Postal Service cannot demonstrate it exercised
                                reasonable care to prevent and promptly correct harassing
                                behavior. We believe the lack of a Postal Service policy
                                requiring documentation of all complaints, and the lack of
                                communication between the Equal Employment Opportunity
                                office and district management may have been factors. We
                                will address these issues in a separate report.

 Recommendation                 We recommend the vice president, Pacific Area Operations,
                                instruct the Oakland and Santa Ana District managers to
                                establish controls to ensure:

                                    1. Managers and supervisors effectively address all
                                       sexual harassment complaints and inappropriate
                                       actions/comments of a sexual nature and fully
                                       document detailed evidence of the actions taken to
                                       address complaints.

 Management’s                   Management agreed with part of the recommendation that
 Comments                       all sexual harassment complaints be promptly, thoroughly
                                and impartially investigated, and stated that procedures
                                have been established in both districts to ensure compliance
                                with the recommendation. Management stated, in
                                November 2002, the Santa Ana District’s Labor Relations
                                manager created a permanent letter of instruction on
                                “Reporting of Sexual Harassment Complaints.” They stated
                                the letter was disseminated to managers to ensure
                                immediate reporting and appropriate action to effectively
                                address all complaints of sexual harassment or
                                inappropriate actions/comments. They also stated the
                                Santa Ana District has qualified managers and professionals
                                who are contacted immediately to conduct investigations.

                                Management also stated the Oakland District implemented
                                training in September 2002 for executive and administrative
                                schedule level employees. They said the training addressed

                                                 8
                                      Restricted Information
Sexual Harassment Prevention Measures in the                                         LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area


                                how to complete the required forms and document an initial
                                management inquiry in response to sexual harassment
                                allegations. They said the training has also been
                                incorporated into the Associate Supervisors Program and is
                                required for all employees at the executive and
                                administrative schedule level 15 and above. They stated, to
                                date, 578 of the 616 employees have been trained.

                                Management disagreed, however, with part of the
                                recommendation to fully document detailed evidence of the
                                actions taken to address complaints. They stated that
                                Postal Service policy allows some matters to be resolved
                                simply and directly between the parties without a formal
                                written record. They said this allows managers maximum
                                flexibility and speed to deal with those minor, one-time
                                events such as an off-color joke or careless remark.
                                Management stated to require documentation on every
                                minor incident of inappropriate workplace behavior would
                                potentially undermine the ability of supervisors to quickly
                                and effectively resolve minor workplace issues. Additionally,
                                they stated when frivolous and baseless charges of
                                harassment are levied, managers need not create a written
                                record on the unjustly accused employee. Management
                                stated that although all matters will be fully investigated, not
                                all complaints would result in a full written record with
                                detailed evidence.

 Evaluation of                  Management’s actions taken or planned are responsive to
 Management’s                   the first part of recommendation 1 and should resolve the
 Comments                       issues identified in the report. However, management’s
                                comments are not responsive to the second part of
                                recommendation 1 to fully document actions taken to
                                address complaints. We do not agree with management
                                that documenting actions would potentially undermine the
                                ability of supervisors to quickly resolve minor workplace
                                issues. Documenting action management took after they
                                address the complaint has no impact on how quickly a
                                matter can be resolved. It does, however, play an important
                                role in determining credibility and mitigating liability.
                                Specifically, it provides a record of the action taken to
                                address and resolve sexual harassment complaints. Postal
                                Service policy is clear that serious complaints must be
                                documented, and further provides that “When in doubt,
                                document.” We believe the policy does not limit
                                management from documenting all actions, it simply
                                establishes a floor, not a ceiling for addressing complaints.


                                                 9
                                      Restricted Information
Sexual Harassment Prevention Measures in the                                      LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area


                                We view the disagreement on this recommendation as
                                unresolved and it will be addressed in a separate capping
                                report.

 Recommendation                 We recommend the vice president, Pacific Area Operations,
                                instruct the Oakland and Santa Ana District managers to
                                establish controls to ensure:

                                     2. The Equal Employment Opportunity office notify
                                        district management of all complaints of sexual
                                        harassment or inappropriate actions/comments of a
                                        sexual nature.

 Management’s                   Management agreed with the finding and recommendation.
 Comments                       They stated, in November 2002, the Santa Ana District’s
                                Human Resources manager sent a letter to the Equal
                                Employment Opportunity manager, Labor Relations
                                manager, and their staffs requesting that effective
                                December 2002, all sexual harassment complaints filed with
                                the Equal Employment Opportunity office be referred
                                immediately to the Labor Relations office for administrative
                                investigation.

                                Management also stated that in September 2002, the
                                Oakland District reinstituted the standard operating
                                procedure that required Equal Employment Opportunity staff
                                to notify the district’s Labor Relations manager and Human
                                Resources manager of all complaints of sexual harassment.
                                They stated a log of all sexual harassment complaints would
                                be maintained and management would ensure that an initial
                                management inquiry or investigation was completed on
                                them.

 Evaluation of                  Management’s actions taken or planned are responsive to
 Management’s                   the recommendation and should correct the issues identified
 Comments                       in this report.




                                                10
                                      Restricted Information
Sexual Harassment Prevention Measures in the                                          LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area




 File Retention and             Our audit found there was no Postal Service policy
 Storage Needed                 regarding the retention time for informal complaint files. In
 Improvement                    addition, the Santa Ana District retained files indefinitely and
                                the storage of informal complaint files was adequate. The
                                Oakland District, however, did not store all files in a central
                                location and the period of file retention was not consistent.

                                Equal Employment Opportunity Commission guidance
                                stated formal sexual harassment complaint files should be
                                retained for at least 4 years after resolution of the
                                complaint. Postal Service policy stated once an
                                inquiry/investigation was conducted, files should be
                                forwarded for storage, to the district Human Resources
                                manager. According to a headquarters senior Postal
                                Service manager, the intent of this policy was to centrally
                                locate the files with the Human Resources manager.

                                We found that the Oakland District retained files for a period
                                of 3 to 5 years. In addition, the storage location of some
                                files was not central and the district could not locate some
                                files when we asked for them. They were later located at
                                the facility where the complaint had been filed. The Labor
                                Relations manager could not explain why the files were not
                                located in the district office.

                                During the audit, Oakland District management advised us
                                they would start requiring that all informal sexual
                                harassment complaint files be centrally stored at the district.

                                Retaining and storing informal complaint files in a central
                                location would ensure file availability if needed to mitigate
                                liability. We will address the need for a national retention
                                policy in a separate report.

 Recommendation                 We recommend the vice president, Pacific Area Operations,
                                instruct the Oakland District manager to:

                                    3. Establish controls to ensure all informal complaint
                                       files are stored in a central location and retained for at
                                       least 4 years.

 Management’s                   Management agreed with the finding and recommendation
 Comments                       and stated the current retention period for Equal
                                Employment Opportunity complaint files was 4 years for
                                counseling requests and 6 years from the date of closure for

                                                11
                                      Restricted Information
Sexual Harassment Prevention Measures in the                                       LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area


                                investigations. They stated that all Equal Employment
                                Opportunity complaint files would be maintained in the Equal
                                Employment Opportunity office. Further, they stated the
                                Labor Relations office would be the custodian of all other
                                files alleging sexual harassment, and the retention period for
                                the files would be 5 years.

 Evaluation of                  Management’s actions taken or planned are responsive to
 Management’s                   the recommendation and should correct the issues identified
 Comments                       in this report.




                                                12
                                      Restricted Information
Sexual Harassment Prevention Measures in the                                                         LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area



     APPENDIX A. OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to determine if the Oakland and Santa Ana Districts, in the
Pacific Area, implemented adequate policies and procedures to prevent sexual
harassment7 in the workplace and to effectively address sexual harassment
complaints to mitigate liability. Our district selections were based on interviews
with the senior vice president, Human Resources; vice president, Diversity
Development; and the vice president, Pacific Area Operations. We also
considered the number of closed formal sexual harassment complaints in each of
the 12 Pacific Area districts.

To accomplish our objectives, we reviewed applicable laws, policies, procedures,
and other documents including Equal Employment Opportunity Commission
guidelines, Postal Service national policies, the Pacific Area, and the Oakland
and Santa Ana District policies for preventing sexual harassment in the
workplace. We also reviewed Postal Service national policy regarding the Pay
for Performance Program. In addition, we reviewed previously issued OIG
reports related to sexual harassment issues. Further, we interviewed Postal
Service Headquarters, Pacific Area, and Oakland and Santa Ana District officials.

To determine if adequate policies and procedures were in place to prevent
sexual harassment from occurring in the workplace, we identified Equal
Employment Opportunity Commission key recommendations to agencies
regarding policies and procedures that should be in place to prevent sexual
harassment and reduce the risk of agency liability. We then reviewed the Postal
Service national, Pacific Area, and Oakland and Santa Ana Districts’ policies and
procedures to determine if the recommendations were included.

To determine whether district managers effectively addressed informal sexual
harassment complaints to mitigate liability, we analyzed the documentation
contained in formal and informal complaint files that were filed and closed8 in
FYs 2000 and 2001,9 for the two districts we selected. We recorded information
related to promptness, thoroughness, impartiality and the level of documentation.
These fiscal years were chosen because they were the most recent and
complete fiscal years at the time of our fieldwork. The number of formal and
informal closed complaints was obtained from the Postal Service



7
  For the purpose of this report, we used the legal definition of sexual harassment defined, in part, in 29
C.F.R. § 1604.11(a), as unwelcome sexual conduct that is a term or a condition of employment In addition,
we included the Postal Service policy regarding inappropriate actions/comments of a sexual nature when
reviewing sexual harassment complaint files.
8
  Sexual harassment complaints may be considered closed for a number of reasons including: (1) the
inquiry/investigation was completed, (2) a settlement had been reached, (3) the complaint was withdrawn, or
(4) discipline or corrective action was taken.
9
  We used the Postal Service fiscal years that started September 11, 1999, and ended September 7, 2001.

                                                   13
                                         Restricted Information
Sexual Harassment Prevention Measures in the                                                         LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area



Equal Employment Opportunity case file database and district management,
respectively. We then excluded those complaints where the employees filed
their complaints directly with the Equal Employment Opportunity office and
requested confidentiality. These were excluded because honoring the request
for confidentiality precluded the Equal Employment Opportunity office from
notifying district management that a complaint had been made. This in turn
precluded management from conducting an investigation. We determined there
were 29 complaint files as follows:

                                                    Complaints               Total Complaints
                     District
                                                 Formal   Informal              Per District
      Oakland                                      13         4                     17
      Santa Ana                                    10         2                     12
       Total                                       23         6                     29

We also determined if the retention and storage of informal files were adequate
using Postal Service national, area, and district policies as well as Equal
Employment Opportunity Commission guidelines.

In addition, we determined whether employees found responsible for sexual
harassment received appropriate discipline using Equal Employment Opportunity
Commission guidelines, Postal Service policies and procedures, and some
elements of the Douglas Factors.10 We included in this determination whether or
not managers or supervisors found responsible for sexual harassment or
inappropriate actions/comments were considered for exclusion from the Pay for
Performance Program.

This audit was conducted from February 2002 through March 2003 in
accordance with generally accepted government auditing standards and included
such tests of internal controls as were considered necessary under the
circumstances. We discussed our conclusions and observations with appropriate
management officials and included their comments, where appropriate.




10
   The Douglas Factors were developed as a result of case law (Douglas v. the Veterans’ Administration)
where the Merit Systems Protection Board ruled that management must document certain factors to be
considered in making a determination of appropriate disciplinary action.

                                                   14
                                         Restricted Information
Sexual Harassment Prevention Measures in the                                 LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area


                  APPENDIX B. PRIOR AUDIT COVERAGE

Report Number LR-AR-99-008

The March 31, 1999, OIG report, Follow-up on USPS Recommendations to
Investigate Sexual Harassment Allegations and to Reassign a Supervisor from
His Position of Authority (Garden Grove Post Office) found that Garden Grove
and Santa Ana District officials had not taken action to investigate some sexual
harassment allegations. The OIG recommended the vice president, Pacific Area
Operations, investigate and report on the results of the sexual harassment
investigations to the Labor Relations and Human Resources vice presidents and
the OIG, and determine why allegations of sexual harassment were not
investigated. We also recommended that the vice president take appropriate
action to address the allegations.

Management responded with an investigative report that concluded there was no
evidence to support sexual harassment allegations were made or that the
supervisor’s behavior created a hostile work environment.

Management’s investigative report was responsive to the OIG recommendation.
The OIG did not agree, however, that the supervisor’s behavior did not create a
hostile work environment.

Report Number LB-AR-01-017

The May 14, 2001, OIG report, Allegations of a Tense and Stressful Work
Environment at a Post Office in the Santa Ana District, found a tense and
stressful work environment existed at the Fullerton Post Office. We found that
management did not aggressively pursue and enforce the Postal Service’s
policies and guidance on sexual harassment, which contributed to the negative
work environment. For example, in one case an employee reported incidents of
sexual harassment to management. The employee claimed she was subjected
to deliberate and repeated unsolicited remarks with a sexual connotation by a
supervisor. The employee felt that the postmaster did not address her complaint
properly. The OIG recommended the vice president, Pacific Area Operations,
require the district manager to enforce the Postal Service’s policies and guidance
regarding sexual harassment.

Management agreed with our finding and recommendation and stated they would
provide the sexual harassment policy statement beginning April 2001 to all
employees through the mail to inform employees of their responsibility to report
sexual harassment claims to the district level. Management also stated that the
postmaster would provide the sexual harassment policy statement to all
employees and post the policy in the facility to increase awareness.
Management’s actions taken and planned were responsive to the
recommendation.


                                                15
                                      Restricted Information
Sexual Harassment Prevention Measures in the                   LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area


               APPENDIX C. MANAGEMENT’S COMMENTS




                                                16
                                      Restricted Information
Sexual Harassment Prevention Measures in the                   LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area




                                                17
                                      Restricted Information
Sexual Harassment Prevention Measures in the                   LH-AR-03-008
 Oakland and Santa Ana Districts – Pacific Area




                                                18
                                      Restricted Information
